<html>
<title> - AXIS OF ABUSE: U.S. HUMAN RIGHTS POLICY TOWARD IRAN AND SYRIA, PART 1</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 AXIS OF ABUSE: U.S. HUMAN RIGHTS POLICY TOWARD IRAN AND SYRIA, PART 1

=======================================================================


                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2011

                               __________

                           Serial No. 112-61

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
67-602                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Jeffrey D. Feltman, Assistant Secretary of State, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     7
The Honorable Michael H. Posner, Assistant Secretary of State, 
  Bureau of Democracy, Human Rights, and Labor, U.S. Department 
  of State.......................................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jeffrey D. Feltman and the Honorable Michael H. 
  Posner: Prepared statement.....................................    10

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45



 AXIS OF ABUSE: U.S. HUMAN RIGHTS POLICY TOWARD IRAN AND SYRIA, PART 1

                              ----------                              


                        WEDNESDAY, JULY 27, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The subcommittee will come to order. I want to 
first apologize for running a little bit late here. We just had 
a series of votes on the floor so that's why we are not 
starting on time. This committee kind of prides itself in 
trying to start on time as often as possible, so my apologies.
    I want to wish you all a good afternoon, and I want to 
welcome all of my colleagues and we will have more coming in, 
of course, to this hearing of the Subcommittee on the Middle 
East and South Asia.
    Since taking office, the Obama administration's policy 
toward Iran and Syria has been characterized chiefly by its 
engagement with the ruling regimes. Whether or not that was the 
right policy at the time, the situation we face today with 
respect to these two countries is vastly different than it was 
in January.
    Just over 2 years ago, the regime in Tehran perpetuated one 
of the most blatant incidents of electoral fraud in recent 
history. This sparked widespread pro-democracy protests, and 
the people of Iran took to the streets by the thousands to 
demand that their most basic rights be respected.
    What followed made very clear, however, that this regime is 
not interested in the rights or wellbeing of its citizens. The 
world watched as the Iranian regime beat, tortured, raped and 
murdered its way through these protests.
    It is perhaps even more horrifying to consider that many of 
these abuses are still occurring nearly 2 years later. The 
Iranian regime has been carrying out what former U.S. 
Ambassador to the U.N. Mark Wallace has called ``One of the 
great human rights tragedies of the modern era.''
    Most notable is the incredible number of executions, which 
by some estimates now exceed 140 people, including children, a 
violation of international law. That this regime continues to 
claim legitimacy under the auspices of democratic elections is 
an insult, not only to the people of Iran, but to all those 
true democracies around the world whose governments actually do 
reflect the will of their peoples.
    Just over 6 months ago Syria, the Iranian regime's closest 
ally in the region, joined Tehran in its ruthlessly repression 
of pro-democracy protests. As protests intensified, the Assad 
regime initiated a brutal crackdown that continues even as we 
speak. It is now estimated that over 1,800 Syrians have been 
killed, over 10,000 have been jailed. Approximately 30,000 have 
been internally displaced, and nearly 12,000 fled to 
neighboring Turkey, where over 8,500 remain.
    Reports coming out of Syria speak of unconscionably heinous 
human rights abuses, snipers targeting protesters, residents, 
including children and the elderly being rounded up, beatings, 
the use of electric shock to the genitals and torture of 
children, to name just several of the witnessed actions by the 
Assad regime.
    I want to condemn in the strongest possible terms both the 
actions of these regimes as well as the regimes themselves. 
These regimes together form an axis of abuse whose wanton 
disrespect for even the most basic human rights is undeniable.
    Today's hearing, however, was called to examine U.S. 
policy. My concern lays not so much with what the 
administration has done as with what it has not done. The Obama 
administration's human rights policies toward Iran and Syria 
have been both feeble and late. Rather than seizing the 
historic opportunity presented to it, the administration 
dithers by slowly inching toward challenging the legitimacy of 
these regimes in any meaningful way.
    This begs the question of how many people have to be 
tortured or die before the administration is willing to call 
these regimes what they are, not only illegitimate but 
depraved. That the administration continues to issue calling 
for a transition to a democratic government in Tehran is 
evidence of one of two possibilities.
    Either it still believes that a grand bargain on the 
illicit nuclear program is possible, or it is concerned that to 
do so, like in Libya, create a situation in which it must then 
ensure that the regime actually falls.
    The fine line that the administration is walking by 
condemning but not seriously challenging puts it in an 
untenable position and from the outside appears to be hedging 
rather than leading. And although the administration may think 
that to do so puts itself in a strategically advantageous 
position, it seriously underestimates the impact its actions, 
or lack thereof, have on actual outcomes.
    Indeed, the perception that calling for a democratic 
transition requires U.S. military operations to forcibly depose 
those in power is an excuse to avoid making a more permanent 
break with the regimes in Tehran and Damascus.
    Words, like many things, have a currency, and that currency 
is action. To highlight human rights abuses and then sanction 
fewer than a dozen individuals in each country respectively, is 
unacceptable. To vacillate between condemning these regimes and 
then later offering a lifeline should they reform, pits us 
against the people of those countries.
    The administration must realize two things. First, making 
no decision is in fact a decision in and of itself. And second, 
no matter who ultimately prevails, the U.S. can no longer do 
business with these regimes. They are beyond salvation.
    And I will now recognize the gentleman from New York, the 
ranking member Mr. Ackerman, for 5 minutes to make an opening 
statement.
    Mr. Ackerman. Thank the chairman. I keep in my office a 
black and white photo of a place called Serock, Poland. It's 
where my mom and her family come from. Following the Nazi 
invasion in 1939, the Jews in Serock were rounded up, sent to 
the Warsaw ghetto and liquidated. Except for the desecrated 
cemetery, there are no Jews in Serock today.
    There was no help for them. The free world claimed not to 
know, and even if it had it probably still would not have 
helped. In 1939 the troubles of Polish Jews were nobody's 
problem but their own.
    Knowing that is part of me. It's one of the reasons I have 
always felt that serving on the Foreign Affairs Committee is 
important. Not because I expect another Holocaust, though the 
Iranian regime seems intent on preparing one, and it must be 
stopped, but because there will always be a grave concern that 
the cry of people in distress or danger of being slaughtered 
will go unheeded.
    We said, ``Never again.'' But it happened again. It 
happened in Cambodia. It happened in Bosnia. It happened in 
Rwanda, Congo, Sudan. It's happening today in Syria. And in 
each case governments, including ours, like guilty children 
look down at their shoes and say to no one in particular, 
``There's nothing we could have done.''
    But that wasn't really true then, and it isn't true now. 
Even the weakest nation can bear witness. The least powerful 
country can still report the truth to the world. The most 
isolated state can, with no authority but its own, impose 
political and economic sanctions. And we are far from weak or 
powerless or isolated. But with regard to Syria, we have 
nonetheless failed to act.
    I have tried to explain our policy to Syrian Americans who 
were almost trembling with anxiety for their relatives, and I 
have failed, principally I think because our policy is so 
completely incoherent.
    Somehow it manages to combine colossal moral failure and 
unimaginable strategic imbecility with the overpowering stench 
of hypocrisy, thanks to our feckless intervention in Libya. 
Congratulations, gentlemen, you have hit the policy failure 
trifecta.
    History will record not only how we mostly ignored the 
people of Syria in their hour of need, but worse, how we 
overlooked our own blindingly obvious national interests in the 
demise of the Assad regime. Virtually every single interest 
that we have in the Middle East, whether it is aiding Israel's 
search for peace and security, protecting Lebanon's 
sovereignty, preventing Iranian hegemony, undercutting 
Hezbollah and Hamas, nurturing Iraq's development, sustaining 
our partnership with Turkey, or just promoting democracy and 
human rights is dramatically, even exponentially, furthered by 
the Syrian people getting rid of the Assad regime.
    And to be very clear, I am not calling for U.S. military 
intervention in Syria. It is both unwise and unnecessary. But 
there is considerably more that we can and must do. First and 
above all, the President must call for Bashar al-Assad, that 
blood-soaked dictator, to step down. Trifling with the lives of 
the people of Syria with nuanced lawyerly phrases like 
``President Assad must understand he is not indispensible,'' is 
shameful.
    Noting that Assad has lost legitimacy without calling for 
his immediate departure from power trivializes the deaths of 
thousands of Syrians killed by Assad's thugs. And most 
importantly between the Syrian Accountability Act and the 
International Economic Emergency Powers Act, the President has 
at his disposal massive economic and political powers of 
coercion and punishment. The Obama administration has barely 
scratched even the surface of their utility in aiding the 
people of Syria in throwing off this regime of murders and 
thieves and torturers of children.
    All bilateral trade with Syria should end immediately. All 
Syrian banks should be barred from the U.S. financial system 
immediately. All Syrian regime assets in the United States 
should be frozen immediately. All official Syrian travel to the 
United States should cease immediately. We must act.
    I look forward with no joy to hearing from our witnesses' 
efforts to defend the indefensible and to explain the 
inexplicable.
    Mr. Chabot. Thank you very much. The gentleman yields back. 
Any other members who would like to make opening statements 
will have 1 minute, and I believe the gentleman from New York, 
Mr. Higgins, was--you are next Mr. Higgins. You are recognized 
for 1 minute.
    Mr. Higgins. Thank you, Mr. Chairman. Thank you for holding 
this hearing today. A fundamental principle of democracy is the 
right of self determination and freedom of expression. The 
people of both Syria and Iran this right has been denied. They 
have been denied freedom of speech and freedom of expression by 
oppressive regimes clinging to power however they can.
    This is an important time in our nation's history. This is 
not only a regional conflict. It's one of global consequence as 
well. The whole world is watching, civilian populations as well 
as authoritarian regimes, to see what the response of the 
United States will be.
    We have a moral obligation to continue efforts to undermine 
Assad, to encourage his departure as quickly as possible, and I 
look forward to the expert testimony of our panel here today.
    Thank you.
    Mr. Chabot. Thank you, and the gentleman yields back. And 
the gentleman from Connecticut, Mr. Murphy, is recognized for 1 
minute.
    Mr. Murphy. I look forward to the gentlemen's testimony. I 
will waive my opening statement.
    Mr. Chabot. Thank you. The gentleman yields back. The 
gentleman from Virginia, Mr. Conolly, is recognized.
    Mr. Connolly. Thank you, Mr. Chairman, and I look forward 
very much to the testimony. I must say I respect you a lot, Mr. 
Chairman, but I don't necessarily subscribe to your critique of 
the administration with respect to policy in Iran. I actually 
think we have been yielding some results in coordinating with 
allies and in enforcing the sanctions in a way that heretofore 
were not.
    With respect to my colleague's and my friend's critique of 
the Syria policy, it is powerful and needs to be heeded, but a 
word of caution. This is not a unidimensional situation. It's a 
multi-dimensional situation and we have to not only worry about 
regime change, we have to worry about what takes its place.
    And so that's a challenge for American diplomacy, and I 
think we need to respect that while at the same time expressing 
our frustration with pace and tone and the words being used 
that my colleague rightfully criticizes. With that I yield 
back.
    Mr. Chabot. Okay. The gentleman yields back.
    The gentleman from Florida, Mr. Deutsch is recognized.
    Mr. Deutch. Thank you, Mr. Chairman, and thank you to our 
witnesses for appearing today. I have long been concerned about 
the egregious human rights abuses taking place daily in Iran. 
Several months ago I introduced bipartisan legislation that 
would require mandatory investigations and impose sanctions on 
those who aided in the brutal crackdown following the June 2009 
election.
    The regime has made it clear that it will not hesitate to 
use violence and intimidation to suppress any threats to its 
iron-fisted rule. The number of executions in Iran has been 
steadily rising, with 39 just in the month of March.
    The United States must show that we are serious in our 
commitment to fighting human rights abuses and to giving 
opposition the necessary tools to speak out and stand up to 
this brutal regime. I look forward to the witnesses' testimony 
on U.S. policy and the efforts being made to document and 
publicize cases of abuse in Iran and providing platforms for 
the opposition moving forward.
    And I thank the chairman and I yield back.
    Mr. Chabot. The gentleman yields back. Thank you. The 
gentleman from Massachusetts, Mr. Keating is recognized if--or 
did he walk out? Okay.
    And then last but not least, I would ask unanimous consent 
that the gentleman from California, Mr. Sherman, who is a 
member of the full committee but not this subcommittee be 
entitled to all the privileges of the members of this 
subcommittee, except that he go last. So the gentleman is 
recognized for the purpose of making an opening statement for 1 
minute.
    Mr. Sherman. Happy to go last. Glad to see Assistant 
Secretary Posner, who's doing an outstanding job at DRL, and I 
thank the chairman for holding these hearings. I hope the 
Assistant Secretary would go back and talk to others at the 
State Department who are planning to issue a license to General 
Electric to repair the supposedly civilian aircraft of the 
Iranian airlines.
    These aircraft have been used and will be used to ferry 
weapons to Iran and then ferry them on to Syria, where Iranian 
weapons deliveries have already resulted in the deaths of 
hundreds of brave Syrian people.
    And I want to talk about the humanitarian crisis faced in 
Camp Ashraf. I want to commend to the Assistant Secretary's 
reading and to my colleagues for possible co-sponsorship, House 
Resolution 231. It was introduced by the chairman of the--
chairwoman of the full committee and myself. And it urges that 
the United States do everything possible to ensure the physical 
security and protection of Camp Ashraf residents, noting that 
as recently as April 8th Iraqi forces initiated force against 
the residents of that camp. And apparently that some 34 people 
died, 300 were wounded.
    And I would also point out that the Iraqi Ambassador in 
trying to disclaim any responsibility for this, points that the 
MEK happens to be listed on the terrorist list. We need to 
protect the people of Camp Ashraf.
    I yield back and I thank the chairman.
    Mr. Chabot. The gentleman yields back. Thank you very much, 
and the chair would like to note the presence of quite a number 
of people here relative to the Camp Ashraf issue. And I would 
just commend those people and their associates for their 
dedication and relentless commitment to their cause.
    And it has certainly been noted by many members of the 
Foreign Affairs Committee over the past weeks and months. And 
so we would just like to note that for the record, that they 
have been in attendance time after time after time, and it is 
duly noted for the record.
    At this time I would like to recognize the two members of 
the panel who will be testifying this afternoon and introduce 
them.
    We first have Ambassador Jeffrey Feltman who was sworn in 
as Assistant Secretary of State for Near Eastern Affairs on 
August 18, 2009. A career member of the Foreign Service since 
January 1986, he has served in Iraq, Israel, Tunisia and 
Lebanon, and was the Ambassador on the Ground in Lebanon during 
the Cedar Revolution in 2005.
    Ambassador Feltman served as Principal Deputy Assistant 
Secretary in the Bureau of Near Eastern Affairs from February 
2008 to his present assignment, serving concurrently as Acting 
Assistant Secretary of State for the Bureau since December 18, 
2008. He received his Bachelor's degree in history and fine 
arts from Ball State University in 1981 and his Master's degree 
in law and diplomacy from the Fletcher School of Law and 
Diplomacy at Tufts University in 1983. And we welcome you here 
this afternoon.
    And our other witness here this afternoon is Michael H. 
Posner, who was sworn in as Assistant Secretary of State for 
the Bureau of Democracy, Human Rights and Labor on September 
23, 2009. Prior to joining State Department, Mr. Posner was the 
executive director and then president of Human Rights First. He 
played a key role in proposing and campaigning for the first 
U.S. law providing for political asylum, which became part of 
the Refugee Act of 1980, and was a member of the White House 
Apparel Industry Partnership task force.
    Before joining Human Rights First, Mr. Posner was a lawyer 
in Chicago. He received his J.D. from the University of 
California, Berkeley School of Law, and a B.A. with 
distinctions and honors in history from the University of 
Michigan. And we welcome you here as well, Mr. Posner.
    And as I'm sure both very witnesses are very familiar with, 
we have the 5-minute rule and you will both be recognized for 5 
minutes. We have a lighting system. The yellow light will come 
on to let you know you have got 1 minute to wrap up and we 
would ask you to keep within that time if at all possible.
    And Ambassador Feltman, you are recognized for 5 minutes.
    Ambassador Feltman. Thank you, Mr. Chairman, Ranking Member 
Ackerman, members of the committee, Assistant Secretary Posner 
and I appreciate this opportunity and we ask that our full 
written statement be included in the record.
    Mr. Chabot. Without objection, so ordered.

   STATEMENT OF THE HONORABLE JEFFREY D. FELTMAN, ASSISTANT 
   SECRETARY OF STATE, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Feltman. This hearing is really important. It's 
very timely. In our view it is absolutely critical that 
audiences in the Middle East see that the United States has not 
and will not ignore those who are struggling for their rights.
    And the fact that you have placed Syria and Iran together 
in the same hearing shines a spotlight on two governments that 
share shameful records on abusing their own citizens and on 
playing destructive and destabilizing roles in the region.
    Mr. Chairman, you were right. The actions that these 
countries are practicing are depraved.
    It is no accident that Iran is Bashar al-Assad's best 
friend and that Syria is Iran's best friend and that neither 
have any other true allies in the region.
    First, a few words on Syria. As Arab demonstrators demanded 
their rights, first in Tunisia and then in Egypt, Bashar al-
Assad insisted to the world that he was different, that he was 
a reformer, that he was in touch with his people. Well, after 
months of protests and brutal crackdowns, the reality is clear. 
Bashar al-Assad is not a reformer but someone whose rule relies 
on terror, theft and torture.
    The regime's violent response to protests has crystallized 
the protestor's demands around freedom and the dismantling of 
the security apparatus. None of Assad's reforms, so-called 
reforms, has resulted in the changes the Syrians want to see on 
the ground.
    The Syrian people now refuse to be subject to house-to-
house raids, indiscriminate arrests, torture, shooting, 
behavior that Assad and his brutal security thugs seem 
incapable of unlearning. Demonstrators seek freedom, and the 
Assad regime responds with bullets and billy clubs.
    To consolidate his monopoly on power, Assad foments 
violence of an intentionally factional nature, seeking to hide 
the nature of his regime by exploiting the Syrian public's 
latent fear of communal strife. As a direct consequence of 
Bashar's approach, deadly violence has at times taken on a 
sectarian shade, such as the recent tragedy in the city of 
Homs.
    But change is coming to Syria. Bashar al-Assad can try to 
obstruct it. He can try to delay it, but he cannot stop it. The 
opposition is not waiting. They are organizing themselves. They 
are beginning to articulate an agenda for Syria's future, one 
in which all citizens regardless of faith or ethnicity are 
equal participants.
    For our part, we have articulated clearly that the United 
States has nothing invested in the Bashar al-Assad regime and 
that we want to see a Syria that is united, where tolerance, 
respect for human rights and equality are the norms. This is 
the message that Ambassador Ford is delivering to the Syrian 
leadership and the Syrian people.
    I will turn in a minute to Syria's best friends, Iran. 
Iranian leaders are shameless, dangerous hypocrites. They claim 
to be on the sides of Arab demonstrators in some countries, 
while sending advisors and material to Syria to aid brutality 
there.
    And they use a merciless iron fist against their own 
citizens who attempt to exercise their rights to demonstrate 
and to speak openly. We are not passive chroniclers of the 
horrors the Syrian Government is inflicting on its people or of 
Iran's brutality.
    Our written statement details our promotion of political 
and human rights and what we are doing to push back against 
these abuses of protestors in both countries.
    We hope today's hearing will serve as further evidence that 
the American people and our Government stand united in 
admiration and support for those who have boldly assumed the 
duty and made the sacrifices to advance their rights. For this 
opportunity we thank the committee again.
    But finally, I must conclude by expressing our deep and 
continuing concern for the safety and the wellbeing of all 
American citizens currently detained in Iran. In particular, we 
urge the Iranian Government to release at once Shane Bauer and 
Josh Fattal so that they may return to their families. We also 
ask Iran again to provide all information on missing American 
citizen Robert Levinson and to cooperate in reuniting Mr. 
Levinson with his family. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you, very much.
    Mr. Posner, you are recognized for 5 minutes.

    STATEMENT OF THE HONORABLE MICHAEL H. POSNER, ASSISTANT 
  SECRETARY OF STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND 
                LABOR, U.S. DEPARTMENT OF STATE

    Mr. Posner. Thank you, Mr. Chairman and member of the 
committee for having us. I want to echo Jeff's appreciation for 
giving us an opportunity to speak to these issues which we feel 
so deeply about. These are two countries, Iran and Syria, that 
are violating every important international human rights 
standard.
    The things that you on the panel describe, the various 
abuses, are things that we see, we agree with, and the question 
is now how to move forward.
    I want to just take a minute and highlight one aspect of 
the situation in Syria, and that's the treatment of young 
people, of children. This set of demonstrations began in March 
in the southern city of Dara'a when security forces fired upon 
those calling for the release of children who had been detained 
for weeks simply for writing political graffiti on the walls. 
The regime responded with its usual methods, using gunfire, 
arrest, torture, abuse to kill and intimidate the protestors.
    Again, in the past several weeks we have seen the attacks 
against children continuing, including a 13-year-old named 
Hamza al-Khateeb, who was tortured and mutilated and his body 
was returned by Syrian security forces. A 10-year-old boy, a 4-
year-old girl were killed during raids on several towns around 
Homs. And on July 15th a 12-year-old, Tallha Dalal, was shot in 
the head by police officers in Damascus.
    Horrific images of these bodies and those of other children 
have been smuggled out. Those responsible for these and other 
atrocities must be held accountable for their crimes.
    We have gone into lots of detail in the written testimony. 
You can read that. But we have no doubt, as you say, that at 
least 1,600 Syrians have been killed, over 10,000 are now 
jailed. Security forces continue to hold people hostage to a 
widening crack down.
    And yet incredibly the people of Syria have lost their 
fear. The demonstrations are continuing. They are expanding. 
And as we have said repeatedly, President Assad has lost 
legitimacy, and he needs and will be held accountable for his 
actions.
    With respect to Iran, as my colleague, Assistant Secretary 
Feltman spelled out, we also are regularly reviewing the record 
of the government. We know how outrageous they have been and 
continue to be. They carry out, as Chairman Chabot, you pointed 
out, we think 190 executions this year, which is more than any 
country in the world except for China.
    The government also continues to impose draconian 
restrictions on speech. Journalists and bloggers are targeted 
as are teachers, trade unionists and others. The list of abuse 
goes on and on.
    Now, particularly troubling to us is the deep persecution 
of religious minorities. On May 1st the Revolutionary Court in 
the northern city of Bandar-e Anzali tried 11 Christians who 
were members of the Church of Iran, including the pastor of 
that church. We have seen this persecution not only against 
Christians but Sufis and the Baha'i. And I want to single out 
the Baha'i because they have been attacked repeatedly 
throughout the years.
    The United States has imposed sanctions against both of 
these governments. But we start from the premise, and I think 
this may be where our approach is not understood as well as it 
should be. We start from the premise that in both of these 
countries there is a courageous populous, a courageous group of 
people who are challenging these repressive governments, and 
our support needs to be rooted in the assumption that change 
will occur from within both of these countries.
    And we are doing a range of things both to support their 
ability to communicate among themselves and the world. We have 
extensive Internet freedom program. We have translated our 
materials into Arabic and Farsi. We are working to support non-
governmental organizations who in both countries are severely 
persecuted. We are providing training to people. We are 
providing ability for them to organize and meet among 
themselves.
    Our belief is that these two governments, these two regimes 
cannot stand the test of time because their own people are 
going to be ultimately successful in bringing about sustainable 
democracy and human rights.
    Thank you.
    [The prepared statement of Ambassador Feltman and Mr. 
Posner follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Chabot. Thank you very much. We appreciate your 
testimony, and we will now begin our questioning, and I 
recognize myself for 5 minutes for that purpose.
    As I am sure we can agree the numbers that were mentioned 
in both your testimonies are astonishing. What is more, just 
this morning the death count continues to rise. According to 
news reports, Syrian tanks surrounded a town near Damascus, 
killing 11 and arresting 300 in one what one human rights 
activist called an ``act of vengeance.''
    Still even as Israel now stands up and says Assad must go, 
as it did yesterday, unfortunately we continue to vacillate. 
Secretary of State Hillary Clinton came close when she said 
that ``from our perspective, he has lost legitimacy.'' But the 
very next day President Obama walked back from this position by 
suggesting that Assad had not in fact lost legitimacy but was 
losing it in the eyes of his people.
    As I read stories like this I found myself asking what I 
had said in my opening statement, you know, how many more 
people have to die before we have the courage to stand up and 
say that Assad is illegitimate and he must go? He must leave.
    Additionally, I don't see why we are willing to stand up 
and call Gaddafi what he is, a ruthless murderer, but we don't 
do the same for Assad. When asked about this very issue, White 
House Press Secretary Jay Carney said that Libya was a ``unique 
situation.'' We had a Gaddafi regime that was ``moving against 
its own people in a coordinated military fashion and was about 
to assault a very large city on the promise that the regime 
would show that city and its residents no mercy.'' That was his 
quote.
    Is this not what is happening right now in Syria? President 
Obama himself said of Syria that ``We are not anywhere near the 
kind of situation that drew all the international support for 
Libya.'' Although the situation has intensified since the 
President said that, our policy doesm't seem to have changed 
accordingly.
    People are still tying and we still have not called for 
Assad's departure. It is not enough to say that we are not 
committed to him and then to condemn his actions. It is time 
for us to say that Assad must go. Why does the administration 
still refuse to do this?
    Also, why did we call Gaddafi illegitimate but not Assad? 
What makes the two of them different? How are they different 
than the regime in Tehran for that matter? And I will leave it 
there at this point.
    And I would recognize either gentleman.
    Ambassador Feltman. Thank you, Mr. Chairman.
    I mean first, let us be clear. We all agree what is 
happening in Syria is absolutely deplorable. It is appalling. 
It is unacceptable. Democracy is Syria's future. Bashar al-
Assad is Syria's past, and the sooner that we get to that past, 
the sooner that he is relegated completely to the past the 
better. I think we all agree.
    You know, when I look across the region that falls into the 
Bureau that I head, NEA, from Morocco through Iran, I see a lot 
of common elements, but I also see a lot of differences. And 
there is basically no one size fits all solution in the region 
that I oversee.
    We are looking for the best tools to support the people on 
the ground. What is the best way to promote democracy in Egypt, 
in Tunisia, in Libya, in Syria? It is different. And the main 
thing is, again, what helps those people on the ground at the, 
you know, right time? When is the right time for us to make a 
statement like that?
    It may be that we are going to make a statement such as you 
suggest, such as you would like to see us now. But we have the 
drama of that once and when is the right time? When will we 
make sure that the story remains about the Syrian people and 
not about us? You want to
    Mr. Posner. I would just add to that. You know, I am very 
focused having worked 30 years in the human rights movement. I 
know the importance of our working with civil society, with 
human rights activists, the people that are standing on the 
street and risking their lives every day. And preparing for the 
moment when the transition does come, does occur and allowing 
us to go forward to create,to help support a democratic 
transition, that is the focus for us.
    We are listening to people on the ground. Ambassador Ford 2 
weeks ago or 3 weeks ago when he went to Hama was greeted as a 
hero because we were standing in solidarity with the people on 
the street. When he went back to his Embassy, our Embassy in 
Damascus, government supported thugs attacked the Embassy.
    That tells you--that gives me a sense that we are doing the 
right thing and we are going about this in a way that 
reinforces those who are on the front line. That is what this 
is about. There is no doubt for the people standing in the 
streets in many now Syrian cities, that we are on their side.
    Mr. Chabot. Well, actually I don't have time to ask another 
question at this time. I appreciate your responses, however, I 
think that many of us do believe that we ought to be very clear 
that Assad has to go now as we made that pretty clear with 
Gaddafi.
    I wouldn't say that our actions ultimately met that 
statement sufficiently because he's obviously still there. But 
we are going to have a second round. My time has expired.
    I recognize the gentleman from New York Mr. Ackerman.
    Mr. Ackerman. I thank the chairman.
    This shouldn't be that hard. You know, we didn't get 
involved in World War II because of the Holocaust. We didn't 
get involved when 1 million Jews were killed or 2 million or 3 
million or 4 million or 1 million who weren't Jewish killed or 
2 million or 3 million or 4 million or 5 million.
    We got involved because the Japanese bombed Pearl Harbor, 
and shame on us for waiting.
    We can't just be sitting here while these people are being 
slaughtered and maimed, where children are being killed because 
we think it is better to observe the diplomatic niceties in our 
approach. Tell that to people whose kids or kids whose families 
and parents are being killed. It is unfair. It is inhumane. It 
is unworthy of us as a society.
    I can understand we are waiting for the appropriate time, 
but for other people the time is too late. It is in our every 
foreign policy interest for this guy to go.
    I know what you are waiting for. You are waiting for, just 
like we waited on all the others, for the guy to be everything 
but out the door before we say you should go out the door, to 
be able to go ``whew'' and blow him off the edge of the cliff 
so that there is no risk. He is already really out. Who is 
going to appreciate that? People appreciate you coming to their 
aid when they are at their most vulnerable.
    We are kind of risk averse here. But you know, this has to 
be done. You know what the outcome is going to be, and it is 
not the romantic in me that says in the end democracy is going 
to win and the streets will win out. It is the mathematician in 
me that tells me that.
    And as somebody, and I think we all are, people who believe 
in the values that we espouse, and that you have articulated so 
well here today, so what's the result of all of that reasoning 
and thinking and hemorrhaging from our hearts? What are we 
waiting for? Who does it hurt?
    Are you worried about--are we worried about hurting his 
feelings? We are hedging our bet here just in the odd chance 
that he is going to be able to hang on so that we can continue 
to do business with a murderer. Push him. Say it. Do it. He may 
not leave when you say it, and it is no embarrassment to us if 
not. The embarrassment is if we don't say it. Can we say it, 
question mark?
    Mr. Posner. Congressman, I share your sense of urgency and 
outrage. I don't think it is right or fair to say that we are 
standing still and hedging our bets. If we want to hedge our 
bets with a government we don't call them barbaric. We don't 
constantly on a daily basis talk about the reprehensible----
    Mr. Ackerman. And names will never harm me.
    Mr. Posner. Well, thereis more than names. This is a--we 
are extremely focused. I am focused. Jeff is----
    Mr. Ackerman. What is the down--Yes, I understand but 
what's the downside to saying to him get out?
    Mr. Posner. What we are saying is----
    Mr. Ackerman. Are we going to be embarrassed if he doesn't 
listen?
    Mr. Posner. No. We are saying at this moment that we are 
standing behind the Syrian people and their demand for 
political change. This is about them. It is not about us.
    Mr. Ackerman. Send them a Hallmark card.
    Mr. Posner. No, it is not because it is backed by action. 
And the action is an American Ambassador who takes the risk of 
going out and standing in the street in Hama.
    Mr. Ackerman. That was important and courageous.
    Mr. Posner. And appreciated by the people who were standing 
there. It is our activity, supporting the ability of the 
opposition to meet, to meet in Turkey, to meet inside the 
country. It is our effort to try to give them the tools to be 
ready for the day when change will occur. And it will occur.
    Mr. Ackerman. I'm saying----
    Mr. Posner. All of those things are part of a strategy and 
the strategy, not unlike what you are saying, is the 
expectation, the realization that President Assad has lost----
    Mr. Ackerman. Why not lay down your cards----
    Mr. Posner [continuing]. His legitimacy.
    Mr. Ackerman [continuing]. And go through all the rest of 
it anyway? Tell him to get out and then continue with what you 
are doing? But let people know where we stand and not be 
unambiguous as we have been.
    Mr. Chabot. The gentleman's time has expired but if either 
of the gentlemen would like respond they can.
    Ambassador Feltman. Congressman Ackerman, the Syrian people 
know where we stand. That is why Robert Ford had his vehicle 
pelted with flowers as he was going through Hama. People know 
where we stand in Syria. They see what we are doing. And also 
this idea that we are hedging our bets, I don't know how you 
calculate it but I calculate that, you know, it is not going 
Bashar's way.
    He cracks down more he is going to enrage the people more. 
Demonstrations pop up all over the country in new places. They 
come closer and closer to the center of Damascus. He pulls back 
as he should and stops the torture and stops the torture and 
the shooting and the killing and the arrests. Then you have 
enormous momentum like you have in Hama.
    He is losing, but that doesn't mean that he is losing 
because of our words. He is losing because of what he is doing 
and because of the fact that the Syrian people are at last 
waking up from the political coma he has tried to keep them in 
for 40 years. And they have transcended their fear and they are 
standing up for a better future for them. He is the past.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The chair would just note that I would like to say this is 
one of those rare occasions when the Republican chair and the 
Democratic ranking member agree but actually we actually agree 
quite often on this committee and I share the ranking member's 
frustration here relative to this matter.
    And I would at this time recognize the gentleman from 
Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for----
    Mr. Chabot. Excuse me. Prior to that I--if the gentleman 
would yield. The gentleman is in the same position as the 
gentleman from California, Mr. Sherman, a member of the full 
committee and not a member of this subcommittee so I would ask 
unanimous consent that he also have the privileges of a member 
of this subcommittee. Although he went last and since he's last 
on this side at this time, the gentleman is recognized.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for allowing me 
to join this hearing. My questions will be to you, Mr. Feltman. 
This is the third time you and I have talked. We talked once in 
November. We talked second in March and now here we are again.
    Those previous times, in my opinion, I didn't get a 
straight answer. I think really you were just trying to kill 
the 5 minutes and not give me an answer at all. There are still 
loudspeakers in Camp Ashraf. What has the State Department 
done, if anything, to remove the loudspeakers that are blaring 
into Camp Ashraf?
    Ambassador Feltman. We are trying to move Camp Ashraf.
    Mr. Poe. Tell me about the loudspeakers. I don't want to 
hear about that yet, about being moved.
    Ambassador Feltman. What we are trying to do is to address 
a very real human rights situation in Ashraf that affects 3,400 
individuals and that could get a heck of a lot worse by the end 
of the year. You have a state within a state that----
    Mr. Poe. Has the State Department--just answer the 
question. Has the State Department done anything in opposition 
or protesting the loudspeakers blaring into Camp Ashraf? It is 
either a yes or it is a no.
    Ambassador Feltman. Well, I'm sorry that that's the litmus 
test for whether we care about human rights in the Camp Ashraf 
or not.
    Mr. Poe. It's either a yes or a no. I will get to the human 
rights.
    Ambassador Feltman. I'm not aware. I'm not aware of 
anything because we are focused on----
    Mr. Poe. So the State Department hasn't--I will reclaim my 
time.
    Ambassador Feltman [continuing]. The larger human rights. 
We are----
    Mr. Poe. Thank--I will reclaim my time, Mr. Ambassador. The 
State Department hasn't done anything about the loudspeakers. 
Thank you. Finally an answer that I first asked in November.
    Since we last talked, the Iraqi Government has invaded Camp 
Ashraf and murdered 34 people and injured more than 70. My 
opinion is one of the reasons they use for an excuse is the 
fact that the State Department continues to list the MEK as a 
foreign terrorist organization. When is the State Department 
going to make a decision as to whether to remove them from the 
list or not?
    Ambassador Feltman. Congressman, I would like to separate 
the FTO designation from Camp Ashraf. We have a pending 
potential crisis, catastrophe in Camp Ashraf.
    Mr. Poe. Just answer the question that I asked, not--don't 
answer one that I didn't ask.
    Ambassador Feltman. It's still--the lawyers are still 
working on it. There were documents that were recently 
declassified to give to the lawyers of the MEK so the process 
is still ongoing. It's taking a while because the 
declassification process, the need to make sure that both sides 
have full documentation. It's an ongoing process.
    In the meantime, as you know----
    Mr. Poe. When do you think it will take place was my 
question?
    Ambassador Feltman. I'm not a lawyer. I don't know, 
Congressman. But as you know, the DC Circuit Court of Appeals 
did keep the FTO designation in place while the review goes on. 
But the review is ongoing. Documents are being declassified, 
passeC to the lawyers of the MEK to make sure they have the 
information as well.
    Mr. Poe. The residents of Camp Ashraf don't want to be 
removed, and I'm sure that you are aware that the full 
committee of the Foreign Affairs Committee passed my amendment 
by unanimous voice vote, that the House of Representatives 
through the Foreign Affairs Committee does not want Camp Ashraf 
moved somewhere else.
    This will pass. It will be legislation. But the State 
Department, your position is the State Department wants them 
moved. But of course, Iraq wants them moved and so do the folks 
in Iran. Is it still the State Department's position to move 
the Camp somewhere else in Iraq?
    Ambassador Feltman. We are trying to do a two-part program, 
Congressman, where the residents of Camp Ashraf will ultimately 
be relocated to a third country, which is what they have told 
us they would like.
    Mr. Poe. Wouldn't it be true--would it be correct that if 
the designation was removed, the Foreign Terrorist Organization 
designation, against the residents of Camp Ashraf, the MEK, it 
would be easier for them to disperse and go throughout the 
world? Many of them are citizens in other countries. Wouldn't 
that be easier for them to do it?
    Ambassador Feltman. Our FTO designation has no impact on 
Europe, for example. So it has nothing to do with the European 
willingness to take in the residents of Camp Ashraf or not. And 
it----
    Mr. Poe. Reclaiming my time. Reclaiming my time. When I 
went and visited with Mr. Maliki and for almost 2 hours with 
other members of this committee and wanted to go see the 
residents at Camp Ashraf and get their side of the story, we 
were, of course, denied that. We didn't want to--he didn't want 
us to hear the other side, possibly the truth.
    He said one reason that the people in Camp Ashraf are 
treated the way they are treated by Iraq is because the State 
Department continues to designate them as a Foreign Terrorist 
Organization. Now, that is what he says. Do you agree with that 
statement?
    Ambassador Feltman. You know, the situation is complicated 
to talk about in 9 seconds, but they have no status in Iraq. We 
are trying to come up with something by which 3,400 people are 
protected, that they participate in the discussions about how 
they can be protected, where they stay with their leaders which 
is what they have said they wanted to do, not to be dispersed. 
Where they stay as a group.
    We are trying to find a way, Congressman, believe me, by 
which we avoid a real problem that could happen at the end of 
the year because Iraq is sovereign now. So we are trying to 
come up with a way by which--and I hope that the friends of 
those in Camp Ashraf will talk to their leaders about our plan 
isn't that bad. Our plan is
    Mr. Poe. Thank you, Mr. Ambassador. Thank you, Mr. 
Chairman. Once again, I didn't get an answer. We will meet 
again and we will ask the questions again.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from New York, Mr. Higgins, is recognized for 
5 minutes.
    Mr. Higgins. Yes, thank you, Mr. Chairman. The 
communication coming from the panel indicates that the civilian 
population of Syria is comfortable and supportive of the United 
States' position relative to Assad. Is that an accurate 
assessment?
    Mr. Posner. You know, realistically, the opposition in 
Syria is a very multiple--multifaceted group. They don't have 
one opinion. I think it is overwhelmingly the case, though, 
that people that are risking their lives, who are out on the 
streets, recognize that we are trying to amplify their voices. 
We are trying to provide protection.
    Ambassador Ford is every day talking to relatives, talking 
to people who are on the receiving end of violence and trying 
to advocate on their behalf. They understand this litany of 
things that we have said suggest--don't just suggest. They say 
very strongly this government has lost legitimacy. We are 
standing with the people that are in the street.
    Mr. Higgins. Got it. You know, Assad is a bad guy. He lacks 
legitimacy. He murders his own people. His father destroyed 
Hama in 1982, some 10,000 people were killed. Streets were 
plowed down. It would seem to me that a strong declarative 
statement by the United States with respect to Assad stepping 
down would sent the appropriate message to the international 
community and authoritarian regimes throughout the world about 
what is going to be tolerated and what is not.
    Is there not a concern, a public policy concern within the 
State Department about not taking that decisive step and 
calling explicitly for his removal?
    Mr. Posner. Congressman, I spend a good part of my day in 
internal debates and discussions within the State Department 
about the use of language in public statements. When we say not 
only that he has lost, President Assad has lost legitimacy, is 
not indispensible, when we say that he has placed himself and 
his regime on the wrong side of history, when we call him 
barbaric, when we say his conduct is reprehensible, in the 
world in which I live that is about as strong language as I 
get. And it is the language that says we have absolutely lost 
faith in this government.
    We are moving in a very deliberate way to support the will 
of the Syrian people who are out on the street. I am very 
comfortable with the fact that at this moment that the United 
States Government is doing what it can and should, positioning 
ourselves to help a democratic transition in Syria. That is the 
message we are conveying here. And I think it is the message 
the people of Syria understand full well, and they are 
appreciative of it.
    Mr. Poe. All right.
    Ambassador Feltman. I certainly support what my colleague 
and friend Mike Posner just said, and I go back to what I said 
before. There is no one-size-fits-all solutions to the 
transitions taking place in the Middle East. We had a 30-year 
strategic partnership with President Mubarak of Egypt. When 
President Obama said essentially that it is time for Mubarak to 
step aside, we knew that those words would mean a lot to 
President Mubarak because of the long relationship with him.
    And we knew they would have the impact that they should 
have coming from the President, coming from the White House. We 
don't have the same sort of relationship with Bashar al-Assad, 
but I don't think that he is under any illusion of where we 
stand when it comes to him. And certainly as we have said, the 
people on the street in Syria know where we stand.
    Mr. Poe. I will yield back.
    Mr. Chabot. Thank you. The gentleman yields back. I think 
the gentleman from Virginia Mr. Connolly was next and is 
recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. Mr. Posner, I take 
your point that the fine art of diplomacy sometimes involves 
the parsing of sentences and the careful perception of precise 
words or sometimes deliberately ambiguous words.
    But surely you can appreciate that there are many audiences 
when the State Department speaks, and as you have heard from 
this dais, there are one audience, Members of Congress who hear 
in that language hedging, unwillingness to call out, you know, 
violent murderous acts by a government against its own people 
for what it is, and a clarion call for regime change. How would 
you respond?
    Mr. Posner. Well, to go back to what I said earlier, I 
don't think there is any ambiguity about the extent to which we 
have condemned the violence. We have condemned it in broad 
strokes, barbaric, reprehensible. And we have condemned it in 
detail. We have condemned it at the level of the President and 
the Secretary of State, and we have condemned it throughout our 
Government. So there is no doubt about the facts and our 
understanding of those facts.
    Mr. Connolly. So it is your position that there is absolute 
clarity about U.S. policy and U.S. intent with respect to the 
Assad regime?
    Mr. Posner. I think if you are standing on the streets of 
Hama there is no doubt that the United States Government has 
been on the side of the people helping both amplify their 
voices, protecting them. That is what Ambassador Ford was 
doing. He was protecting people who were facing down guns and 
who were likely on that Friday to be shot at. His presence 
there made a difference.
    When the families of victims, families of people who have 
disappeared, families of people who are being tortured come 
into the Embassy, they understand that the United States 
Government is trying to help alleviate their pain and their 
suffering.
    Mr. Connolly. Mr. Posner.
    Mr. Posner. That is really what this is about.
    Mr. Connolly. No, it isn't. No, it is not. Foreign policy 
isn't just about an audience in Hama. Foreign policy is also 
about the domestic audience here that supports or doesn't 
support our foreign policy. What you have heard from this dais 
is Members of Congress have trouble understanding what you just 
said. So it may be clear in Hama. It is not so clear in the 
halls of Congress, and that is your responsibility as well as 
ours. That is my point.
    You have many audiences. That is an important one and I 
respect it. But you need to, you, collectively, need to respect 
this one. Otherwise you are going to erode confidence in what 
you are trying to do.
    And so I would commend to you, you know, parse those 
sentences and select carefully those words for precision or 
deliberate ambiguity with this audience in mind as well.
    Mr. Posner. You know, and I appreciate that.
    Mr. Connolly. Thank you.
    Mr. Posner. And we appreciate the fact that you are having 
this hearing. I think it serves the interests that we both 
share, which is a move for change.
    Mr. Connolly. Ambassador Feltman, what is our goal in 
Syria, understanding that peace and goodwill to mankind is not 
a foreign policy?
    Ambassador Feltman. Our goal would be to see a different 
sort of government, a government that was not playing a 
destabilizing role in the region but a positive role in the 
region, that was not funding Hezbollah and trying to dominate 
Lebanon, that was not shipping terrorists to Iraq. That was not 
abusing its own people.
    A government that is accountable to its own people, that 
represents the rich diversity of Syria at peace with its 
neighbors, respectful of human rights. That is the Syria that 
the opposition has been saying they want to see. That is the 
Syria we want to support. And that is the Syria that is coming.
    Mr. Connolly. So Mr. Ambassador, therefore, implicitly we 
should conclude logically we favor a regime change because this 
regime can't do anything else.
    Ambassador Feltman. No, you are absolutely right. This 
regime has been a strategic enemy of the United States and has 
abused its own people. And a different sort of Syria can play a 
much better role bilaterally with us and in the region, as well 
as in protecting its own people.
    Mr. Connolly. And I have got 34 seconds, but are we 
concerned that with the best of intentions in calling for that 
regime change we need to be concerned about what takes its 
place?
    Ambassador Feltman. Well, we certainly have our views about 
what should take its place. The opposition is becoming 
increasingly organized, articulate a positive vision going 
forward, the sort of Syria that we have discussed that we would 
like to see. We have no crystal ball that can guarantee an 
outcome, but we certainly can try to help shape that outcome.
    I mean, as we have said multiple times, change is coming. 
And the current situation where you have Syria with Hezbollah, 
Syria exporting terror to Iraq, Syria abusing its own people, 
it is not a friend of the United States.
    Mr. Connolly. Thank you. My time is up.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from California, Mr. Rohrabacher is recognized 
for 5 minutes.
    Mr. Rohrabacher. Yes, thank you very much. Pardon me for 
being late. I, as you know, run in and out of different 
meetings at the same time. And I know that some questions have 
already been raised, but I would like to be a little more 
specific on first of all the massacre that took place in Camp 
Ashraf in April.
    What have you done to--I mean you are human rights here. 
You are the guy at the State Department who is supposed to be 
concerned about human rights. What have we done to prevent 
another massacre since then? Whoever?
    Ambassador Feltman. Congressman, thank you. It is we have 
condemned what happened in April. Obviously you certainly saw 
the condemnation, but what we are trying to do now is to 
prevent more such incidents.
    Mr. Rohrabacher. So what have we done to prevent another 
massacre?
    Ambassador Feltman. Well, what we are doing now is we are 
trying to negotiate with the leadership and the residents of 
Camp Ashraf about security arrangements that would protect the 
34 individuals that are there, abide by their demand that they 
not be separated from their leadership, and provide safety 
going forward.
    Mr. Rohrabacher. Security arrangements? What security 
arrangements?
    Ambassador Feltman. I mean we have--I think you are aware, 
Congressman.
    Mr. Rohrabacher. What specifically? What security 
arrangements are you talking about?
    Ambassador Feltman. What we are trying to do is to find a 
way by which we can allow the Iraqis to exercise the 
sovereignty that is their right on, you know, sovereign Iraqi 
territory.
    Mr. Rohrabacher. Correct.
    Ambassador Feltman. While protecting the rights, the human 
rights of 3,400 people who are at Camp Ashraf who don't have 
any status inside of Iraq.
    Mr. Rohrabacher. Right.
    Ambassador Feltman. And by working with the residents and 
the leadership of the Camp, the ICRC, the Iraqi Government, to 
come up with a way by which the residents and leaders of Camp 
Ashraf themselves are participating in decisions that affect 
their future. Right now they are sitting there waiting and who 
knows? We don't want to see another massacre happen, but 
something could happen. So we are trying to work with them to
    Mr. Rohrabacher. Well, right, well okay.
    Ambassador Feltman. relocate them as a preliminary step for 
the relocation effort.
    Mr. Rohrabacher. Okay. Got it, got it, so we are talking. 
We are talking. We are talking and we haven't reached a 
decision yet. There was a massacre of 35 people who were 
intentionally killed by Iraqi troops. This is not an unknown 
bomber. This is an act of a sovereign government deciding that 
it will kill unarmed civilians in order to achieve an 
objective.
    We are now working with them or talking with them. We have, 
what, 50,000 troops still in Iraq?
    Ambassador Feltman. It is a little lower than that, 40 some 
now.
    Mr. Rohrabacher. Okay. And up until this time, up until the 
time before the massacre we had made a pledge to the people of 
Camp Ashraf that we were going to protect them from such things 
as massacres from the Iraqis. Is that correct?
    Ambassador Feltman. Well, Congressman, the fact is that 
from January 1, 2009 the Iraqi Government itself has been 
responsible for security inside of Iraq. We are no longer there 
providing security inside of Iraq.
    Mr. Rohrabacher. Yes. But we have 50,000 troops in Iraq, 
and if there is--and I would hope that this isn't like the 
Dutch did down in the Balkans when--well, you know, this really 
isn't our jurisdiction so we are going to let these guys come 
in and massacre unarmed people right in front of us.
    Ambassador Feltman. But Congressman, what we are really 
trying to do is we are looking at the calendar. We have a 
security agreement with which we will comply. Our troops will 
be out under the terms of that security agreement by the end of 
December. At the end of December we will no longer be there the 
way we are now, so----
    Mr. Rohrabacher. Yes, well, okay----
    Ambassador Feltman [continuing]. We are trying to find a 
solution now.
    Mr. Rohrabacher. Okay, one of the--look. One of the 
options, of course, is taking the people of Camp Ashraf to a 
third country. That is one option that we need to talk to them 
about. But no third country is going to take them as long as we 
designate this group as a terrorist organization. And the State 
Department has been dragging its feet for years on 
redesignating this group.
    We have designated them a terrorist organization in order 
to curry favor with the Mullah dictatorship in Iran and it has 
resulted in a massacre of 35 innocent people who were unarmed 
and the wounding of hundreds of others. At the very least the 
State Department should be working overnight and tomorrow to 
issue the fact that they are no longer on the terrorist list 
because that is the problem.
    Ambassador Feltman. Congressman, I respectfully disagree. 
We have talked to the European governments about this. They 
don't take into account our FTO designation at all. They take 
in----
    Mr. Rohrabacher. Well, are the European governments the 
only ones that have options of where we might be able to take 
these people?
    Ambassador Feltman. No. The FTO designation applies to the 
United States.
    Mr. Rohrabacher. Right.
    Ambassador Feltman. But for Camp Ashraf it is a number of 
things, such as they don't----
    Mr. Rohrabacher. It applies for a lot of other countries 
when the United States designates a group as terrorists, on a 
terrorist list, and we are asking them to take people into 
their country who are on a terrorist list. Now, if you want to 
do your duty in terms of responsible overseeing of a human 
rights standard, we should start with taking actions like this 
that would be easy to take that action which would prevent 
future massacres.
    And I am watching and I don't see that for whatever reason 
it is. It is still this politics of leaving these people on the 
terrorist list that is keeping them at risk of another major 
disaster where maybe this time hundreds will be killed rather 
than just 35.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman from Florida Mr. 
Deutch is recognized for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Secretary Feltman, I would like to join you in calling for 
the immediate release of Robert Levinson. Robert Levinson and 
his wife Christine are constituents of mine. It has been now 
more than 4 years since he disappeared in Iran. They are 
awaiting word. I will ask you here to share whatever 
information you can with us. If it is more appropriate to share 
that privately I would ask that you come to my office and 
provide the most detail possible.
    Ambassador Feltman. I would prefer coming to your office 
and talk about Robert Levinson, Congressman Deutch. Thank you.
    Mr. Deutch. We will arrange that. Secretary Posner, what is 
the status of the opposition movement in Iran at the moment?
    Mr. Posner. As in many countries where there has been a 
lack of political space to operate, the status of the 
opposition is fragmented and diffuse. There are very few 
opportunities for them to exercise their political muscles. But 
they are, I would say, increasingly frustrated. Obviously 
frustrated by a government that is repressive in every way, a 
government that allows them little space to speak freely, to 
get out into the streets, to meet privately even to discuss 
political issues.
    Mr. Deutch. What are we doing to support them?
    Mr. Posner. Well, we are doing several things. I mean one 
of the things that I am very involved in, and Congress has been 
very supportive of this, to build capacity for people using the 
new tools of technology, the Internet and social media to 
communicate with each. Again, in a place where you are not 
allowed to go to the street and where government has security 
forces at every corner, it is very important for people to be 
able to communicate.
    We have got a very aggressive Internet freedom program that 
includes wide translation of materials into Farsi, training of 
activists both on how to use the technology, but also how to 
protect themselves from a government that spends a lot of time 
and money trying to disrupt their ability to communicate and 
makes it dangerous.
    We are working also constantly to try to allow Iranian 
groups to communicate in and out of the country, to meet, to 
gather, to begin to think about what is Iran going to look like 
after this nightmare ends? And we are very, very focused.
    Mr. Deutch. At the same time, I think there is more that we 
could do to crack down on the human rights abusers. Part of the 
new legislation, around the legislation, is bipartisan 
legislation that I had introduced that will do just that. I 
look forward to working with you on that.
    I want to switch back to Syria for a second. Secretary 
Feltman, there were some reports, published reports earlier in 
the month that Syrian mission personnel under the Syrian 
Ambassador were conducting video and photographic surveillance 
of people participating in peaceful demonstrations in the 
United States. They were effectively, according to these 
reports, watching. They were effectively spying on American 
citizens.
    The Ambassador was called into the State Department by one 
of your colleagues, and I have been unable to determine what 
happened as a result. And what the status of the State 
Department's investigation of these very serious charges is?
    Ambassador Feltman. Congressman Deutch, thanks for the 
question, because they are serious charges. They are extremely 
serious charges. And the colleague that called him in was 
Assistant Secretary of State Eric Boswell who heads up our 
diplomatic security bureau, but also oversees the Office of 
Foreign Missions, which deals with Embassies that are located 
here which is why he was the counterpart.
    And he called him in because of the seriousness of these 
charges and made it clear that this is not behavior, these 
allegations demonstrate behavior that is not behooving of 
diplomatic status here. It was to the charge, by the way----
    Mr. Deutch. Yes, excuse me.
    Ambassador Feltman. It was the charge not--it was not the 
Ambassador.
    Mr. Deutch. Excuse me 1 second. Excuse me for 1 second. It 
is--it goes well beyond----
    Ambassador Feltman. It's not----
    Mr. Deutch [continuing]. This is not becoming of diplomatic 
behavior.
    Ambassador Feltman. No, it is not consistent with his 
diplomatic mission is for sure. There is another----
    Mr. Deutch. But the accusation is that they have been 
spying on American citizens.
    Ambassador Feltman. There is another investigation that is 
under way that we would have to talk about in a different 
setting.
    Mr. Deutch. Okay, well, and I look forward to that. But I'm 
simply asking----
    Ambassador Feltman. Well, it is----
    Mr. Deutch [continuing]. When the Ambassador was called 
in----
    Ambassador Feltman. It was the charge d'affaires. The 
Ambassador wasn't there.
    Mr. Deutch. Well, by all reports including the report 
coming from the State Department, it was the Ambassador who was 
called in.
    Ambassador Feltman. Perhaps you are right, Congressman 
Deutch. I believe it was the charge d'affaires, though.
    Mr. Deutch. If I--Mr. Chairman----
    Ambassador Feltman. The Ambassador has been--the Ambassador 
was on--was out of the country at the time I believe.
    Mr. Deutch. So the--I am going to--I am going to claim a 
few extra seconds to continue.
    Ambassador Feltman. No.
    Mr. Chabot. Yes, go ahead. Without objection, the gentleman 
is recognized for 1 additional minute. Thank you.
    Mr. Deutch. I appreciate that, Mr. Chairman, thank you. The 
statement that came out of the State Department said that the 
Assistant Secretary for Diplomatic Security Eric Boswell called 
Syrian Ambassador Imad Moustapha into the State Department on 
Wednesday, July 6th to express a number of our concerns with 
reported actions of certain Syrian Embassy staff in the U.S.
    Ambassador Feltman. Yes.
    Mr. Deutch. Are you--you are telling me that that----
    Ambassador Feltman. No, that must be--I'm sorry. I am 
sorry, Congressman Deutch. I will stand corrected by the State 
Department statement. Let me just--I can just go there--we 
share your concern about this. This is--these allegations, if 
proven true, demonstrate outrageous abuse of diplomatic status 
in this country.
    So we share your concern about this. There is an 
investigation under way.
    Mr. Deutch. And we can speak further--and we can speak 
further about the investigation. I am asking if you are not at 
liberty to discuss the status of that investigation here we can 
do that in my office. What I am asking about is since there 
were reports, including a statement from the State Department 
publicizing this meeting that took place, I am simply asking 
what transpired in that meeting since we have not seen any 
reports of that that have come out since? And can you confirm 
the Ambassador was at that meeting or not?
    Mr. Chabot. The gentleman's time has expired, but if you 
can answer the question go ahead.
    Ambassador Feltman. No, you know, I am sorry--I am sorry 
for being wrong about who he met with. I have obviously got the 
meeting confused, but there has been an ongoing investigation. 
It is under way into the allegations. We are not aware of new 
allegations since the time of the meeting. We haven't--new 
allegations of events like that that have taken place since 
then we are not aware of any.
    The Ambassador himself, who was the subject of some of 
these allegations, is currently out of the country, scheduled 
to come back some time in August, but the investigation is 
under way.
    Mr. Chabot. The gentleman's time has expired. We are going 
to go through a second round here and I recognize myself for 5 
minutes.
    I would like to first talk about Iran. What actually is our 
policy on Iran at the moment? Are we trying to negotiate a deal 
with the regime? Are we trying to undermine it or both? If we 
are trying to negotiate a deal with it, at what point would the 
administration conclude that this regime is beyond salvation? 
And I would ask your answer to that. Are we at that point yet 
that it is beyond salvation?
    Ambassador Feltman. I am not quite sure even if we conclude 
that because if you look at their--if you look at their 
repugnant behavior in the region, how they have defied the 
international community and all sorts of things from human 
rights to international nuclear regulations and law. The 
defiance of the Security Council regulations.
    If we declare that they are--if we have decided that they 
are beyond--that they have gone beyond acceptable behavior 
which they clearly have, well then what? We still have to deal 
with the reality that Iran is playing a destabilizing, 
destructive role in the region and how best do we confront it? 
We have to confront it through security alliances in the 
region.
    Mr. Chabot. No, let me come at it a little different way. 
Again, Iran, in the aftermath of the June 2009 election, 
protestors in Iran coalesced into a broad-based pro-democracy 
opposition. The administration, however, offered no 
significant, tangible or moral support really at the time. And 
current support I would argue is half-hearted at best.
    Indeed, some analysts believe that the administration has 
written off the Iranian opposition, believing that it is dead. 
Has the administration indeed determined that the Iranian 
opposition movement is dead? And what is the administration 
actually doing beyond increasing programming and social media 
activity to assist the Iranian opposition movement?
    Are we providing technical, monetary or other such tangible 
assistance similar to what we did with Solidarity in Poland? 
And if not, why not? And what needs to happen before the 
administration would consider throwing meaningful support, and 
I mean meaningful support, behind the Iranian opposition 
movement? And I would yield.
    Mr. Posner. Let me answer that. I think there are three 
aspects to what we are doing. One, we are providing support, 
both through the new social media but also support to civil 
society activists. We don't, you know, put lists on the 
rooftop, but we are certainly mindful of the variety of 
democrats, democratic forces in Iran. And we are supporting 
them in a range of ways.
    Secondly, we are extremely outspoken, and this includes the 
President and the Secretary of State. I think we have made more 
public statements about Iran than any other country. And those 
statements continue including with this hearing, and again, we 
appreciate that.
    The third aspect which we haven't talked about is that we 
have really ramped up our efforts not only to impose sanctions, 
which we have done against key leaders, but against--but also 
to bring others along. And we are starting to succeed at that.
    We led an effort at the U.N. Human Rights Council to have a 
special expert, a rapporteur appointed several months ago. The 
United States is taking a lead in a range of diplomatic fora 
and we will continue to do so to isolate Iran and to make clear 
that not only we but our allies need to be part of this effort.
    So it is a combination of support for the activists, public 
commentary and work at the United Nations.
    Mr. Chabot. Okay. I have only got 1 more minute, so let me 
just--one other issue relative to Iran, the three American 
hikers who were detained by the Iranian Government back on July 
31, 2009, nearly 2 years ago to the day. That is longer than 
the 444 days of the original Iranian hostage crisis.
    They are being held on trumped up espionage charges and are 
awaiting trial before what will, without a doubt, be a kangaroo 
court. What is the administration doing to secure their 
release? What consequences will the Iranian regime face should 
it not release them? And what consequences has the Iranian 
regime faced to date as a result of this outrageous behavior? 
And I will yield.
    Ambassador Feltman. Chairman, thanks for the question 
because that is one of the reasons why I closed my own opening 
statement with mentioning these, the two hikers, was to 
reinforce the point that we are working every day to try to 
secure the release of these two hikers. There is a lot of 
diplomatic activity that is going on about these two hikers. Of 
course, one was released. One of the three was released thanks 
to some of our friends in the region and beyond.
    The Swiss currently represent our interests in Iran and 
they are very active with this portfolio in looking for ways to 
persuade the Iranians to release them. We also are in touch 
with the international partners who have relations with Iran, 
those that go to Iran. I travel a lot in the region, for 
example, and this is near the top of my agenda list when I see 
people who I know are going to Iran is you need to make it 
absolutely clear to the Iranians that this is essential for us 
that these two hikers get home.
    Mr. Chabot. Okay. I thank you, and my time has expired. I 
recognize the ranking member Mr. Ackerman for 5 minutes.
    Mr. Ackerman. Thank you, Mr. Chairman. We have tried to get 
you to say regime change, something that you would not be 
unhappy with from the tone of your explicit remarks. And the 
administration doesn't want to get too far forward in its skis, 
and despite the fact that we have tried everything short of 
waterboarding and we may want to try that later.
    Mr. Chabot. We agree once again.
    Mr. Ackerman. Come to our office.
    Mr. Chabot. That was just Tweeted, Mr. Ackerman.
    Mr. Ackerman. I will move off of that, but getting it done, 
you don't have to say the words I supposed to get it done. In 
my opening statement I referenced a list of things that I 
thought we should be doing now that would more than ratchet up 
the pressure. It would be hopefully to deal a more crushing 
blow to the regime, encouraging its abdication.
    What is wrong with those suggestions and why haven't we 
done that? I know we have had some sanctions on some 
individuals from within the Syrian leadership, but why aren't 
we ending all bilateral trade? Why aren't we barring all the 
Syrian banks from our U.S. financial system? And why aren't we 
freezing the assets of Syria, all of the assets of Syria? And 
why aren't we imposing a travel ban on all of their government 
officials?
    You can do them one at a time if you like. And wouldn't 
that be helpful in getting the thing done without us saying the 
unthinkable?
    Ambassador Feltman. Congressman Ackerman, thanks for the 
question. Part of what we are--because we are looking at 
exactly these things you are looking at. I mean we start from 
the reality that Syria is one of the most sanctioned countries 
in the world when it comes to trade and relations with the 
United States. Trade between the United States is quite low. It 
consists of only five areas, food, medicine, medical supplies, 
some civil aviation safety parts and communications equipment. 
The communications
    Mr. Ackerman. Let's go straight to oil imports.
    Ambassador Feltman. Okay. Good question. We had a long 
discussion today
    Mr. Ackerman. And financial institutions.
    Ambassador Feltman. We had a long discussion today with our 
European colleagues because what we are trying to do is to move 
together with our European colleagues. You know, if we do oil 
and gas sanctions ourselves we don't have oil and gas trade 
with the Syrians it is not going to amount to a whole lot.
    There are, you know, questions about how much it hurts the 
Syrian people versus hurts the Syrian regime is an ongoing 
discussion, but we are--what we are trying to do it to work 
multilaterally so that we and some of our other--and some of 
our other partners in Europe and elsewhere are taking the same 
steps in tandem because we will have a much greater impact to 
do this together.
    It goes back to the fact that Syria has very few friends 
left, so other countries are looking at doing some of the same 
things that we are doing now.
    Mr. Ackerman. When can we--when can we see a recommendation 
to freeze all the assets? Or would you prefer that we send that 
over to you?
    Ambassador Feltman. Well, I mean, we welcome all tools we 
can have to try to put pressure on this regime, you know, 
leaving some flexibility with--in the--leaving the flexibility 
in the President's hand for foreign policy.
    Mr. Ackerman. These are--these are tools that you have. I 
mean you don't have to go ``Mother may I?''
    Ambassador Feltman. No, we are--as I say, we start from the 
fact that it is a heavily sanctioned country already so a lot 
of the stuff that the Europeans are doing now we did years ago 
because of the terrorist support.
    Mr. Ackerman. Why----
    Ambassador Feltman. There are a lot of----
    Mr. Ackerman. Let's get precise.
    Ambassador Feltman. We have----
    Mr. Ackerman. Why don't we freeze all of the Syrian assets 
in the United States tomorrow and all bilateral trade with 
possibly the humanitarian stuff exempted? And why don't we ban 
all travel?
    Ambassador Feltman. And we are looking at a wide variety of 
tools----
    Mr. Ackerman. How long are we going to look?
    Ambassador Feltman [continuing]. Congressman Ackerman. You 
know, we are--we are rolling out different sanctions, different 
designations all the time on Syria. But again, to the extent 
that we do this in partnership with others, that we take 
parallel steps it is going to have a far, far greater impact 
because there is just not that much trade between the United 
States and Syria. We shut it all off tomorrow, it will have----
    Mr. Ackerman. Yes, but it will have--it will have some 
impact.
    Ambassador Feltman [continuing]. It won't make that much of 
a difference.
    Mr. Ackerman [continuing]. If we do it, whether we do it 
together with them or not. And if we do it maybe they will do 
it. Why not start?
    Ambassador Feltman. Well, I think we have started. And the 
fact that we have designated 27 individuals and entities since 
this all started----
    Mr. Ackerman. Are you going to freeze all the Syrian assets 
in the United States any time soon?
    Ambassador Feltman. You know, we are looking at the steps 
to take, Congressman. That is all I can say. You know, we are 
constantly looking at more and more designations as appropriate 
tools to pressure----
    Mr. Ackerman. You are viewing this as a peep show. You are 
looking at this. You are looking at that, and people are dying.
    Ambassador Feltman. Yes, I guess I would just respectfully 
disagree with the fact that we are sounding inactive.
    Mr. Ackerman. I am not saying you are inactive. I am saying 
you are not as effective as you should be, or could be, or have 
to be, or are morally obligated to be. We should be doing--if 
you don't want to say the magic words I understand that. I 
really don't, but I will say that I understand that. But I 
don't understand why you are not using all the tools at your 
disposal besides looking at them.
    Mr. Chabot. And the gentleman's time has expired, but I 
don't know if the gentleman want to answer the question or----
    Mr. Posner. You know, Congressman, I listened carefully to 
your list and we will go back and look at each of the things 
you raise. And I will make a commitment that we are going have 
the conversation about each of them and see if--what more we 
can do. As Jeff said, as Assistant Secretary Feltman said, you 
know, virtually every senior Syrian official has now subject to 
sanctions and so you are suggesting there are other things we 
can do. We will look at them and see if there are ways to 
ratchet it up.
    Mr. Chabot. The time has expired. The gentleman from 
California Mr. Rohrabacher is recognized for 5 minutes.
    Mr. Rohrabacher. Well, I would just like to note that I am 
as frustrated by this interview as Mr. Ackerman. Let me just--I 
am just hearing these words, ``We are looking and we are 
talking.'' I just hear that repeated over and over again. ``We 
are looking and we are talking.''
    And let me note there is a difference between being 
proactive and being reactive, and especially if reactive means 
that you are looking and talking that doesn't come up with of 
the kind of movement in the direction that I believe will make 
this a peaceful and free world.
    One thing, one note about our last discussion a few moments 
ago, let me just state for the record that the representatives 
of the United Nations High Commission on Refugees to the United 
States, Vincent Cochetel was in my office 2 weeks ago and 
specifically told me that the terrorist designation by the 
United States of the people of Camp Ashraf was the major 
stumbling block in getting these people relocated.
    And so let me--that's on the record for you now and you can 
try to go around it each way. You are sitting on a solution. 
Now, I take it that neither one of you gentlemen have made the 
decision, but whoever has made the decision that we are not 
going to take them off the terrorist list and probably, as I 
say, due to whoever that person is wanting to curry some kind 
of favor with the mullah dictatorship, is playing with the 
lives of unarmed people who have already gone through a 
massacre.
    And I hope you go back to the State Department and just let 
them know if there is another massacre it is you guys who are 
responsible for the death of these unarmed people because we 
are not--something as easy as taking them off of the--I mean it 
is easier to take them off the terrorist list than it is to 
freeze all the assets of Syrians in the United States for 
Pete's sakes.
    This is something you can do and you are not doing it.
    Unknown. Would the gentleman yield?
    Mr. Rohrabacher. Mr. Posner, are you--do you believe in a 
moral equivalency between the United States and, let's say, 
Communist China?
    Mr. Posner. My view is, and I am quite involved in a set of 
conversations with the Chinese authorities about prison 
conditions, about recent arrests that have happened since the 
beginning of the year, about restrictions on religious freedom, 
about a whole range of problems relating to treatment of 
workers.
    Mr. Rohrabacher. Right. I found that during the Cold War 
that when we were discussing the very things you are talking 
about----
    Mr. Posner. Yes.
    Mr. Rohrabacher [continuing]. That it undermined our 
progress when we tried to find something that we could hold up 
as an example of where we are actually just as bad over in this 
area. And I have a quote from you in a briefing that says that 
you have brought up the Arizona immigration law early and 
often. You said it was brought up early and often with the 
Chinese and that there was a troubling trend in our society 
that it was an indication of discrimination and potential 
discrimination.
    Do you--by the way, do the Chinese just permit to come into 
their society illegally and don't kick them out?
    Mr. Posner. Let me respond to that. That was a year ago 
when we----
    Mr. Rohrabacher. Yes.
    Mr. Posner [continuing]. Did that bilateral discussion on 
human rights. The issue of Arizona was raised not on the 
merits. It was raised to say by a range of our Government 
officials, including a Supreme Court judge, that when we have a 
controversial issue like immigration, we debate it openly. 
People file lawsuits. Lawyers aren't disbarred for that.
    Mr. Rohrabacher. Well, you designated it as a troubling 
trend of our society and it deals with issues of discrimination 
and potential discrimination. You think that trying to maintain 
border controls and if we don't preventing people from pouring 
into our country is a violation of their human rights?
    Mr. Posner. No, it is a controversial issue but it is one 
that I am very proud of the fact that we debate openly. 
Newspapers report on it. Editorial writers speak their mind, 
and people don't go to jail for that. And that we were making 
the contrast with what happens in China where dissidents, 
people who criticize the government, are punished for their 
activities.
    That was the point of that discussion. We never got into 
the details or the merits of our internal debate about that.
    Mr. Rohrabacher. Well, it wasn't one discussion. Apparently 
you suggested that you had brought it up ``early and often,'' 
so we are not talking about one discussion.
    Mr. Posner. No. It was raised by several people. We did not 
have a substantive discussion of that subject. I am a believe, 
Congressman, that the United States is and has always been a 
leader in the field of human rights.
    Mr. Rohrabacher. that is correct.
    Mr. Posner. We believe in universal human rights. We helped 
to create the framework at the United Nations of the Universal 
Declaration. We lead by example.
    Mr. Rohrabacher. Right.
    Mr. Posner. And so I am proud to represent this county. I 
am proud to be part of a government that takes these things 
seriously.
    Mr. Rohrabacher. But that does not include----
    Mr. Posner. And I will continue to do that.
    Mr. Rohrabacher. But you weren't putting----
    Mr. Chabot. And the gentleman's time has expired.
    Mr. Rohrabacher. I would ask for 1 additional minute?
    Mr. Chabot. Without objection, so ordered.
    Mr. Rohrabacher. In that and by the way, obviously I agree 
with that statement and obviously that is something we all 
agree on, but are you putting the right to go into another 
country illegally and reside there and receive all the benefits 
of the citizens of that country, is that a human right?
    Mr. Posner. No, every country has the obligation and the 
commitment to enforce its borders. How we treat people, how a 
country treats immigrants is a subject that we could have a 
whole hearing on. But I have no doubt that there is an 
obligation of every country to have border control.
    Mr. Rohrabacher. Yes, yeah, we are not talking about 
immigrants now. We are talking about illegal immigrants.
    Mr. Posner. I understand.
    Mr. Rohrabacher. That is a big difference. Thank you very 
much, Mr. Chairman.
    Mr. Ackerman. Would the gentleman yield?
    Mr. Rohrabacher. Certainly. I have 20 seconds--15.
    Mr. Ackerman. Could we extend that to another minute?
    Mr. Chabot. Well, the gentleman----
    Mr. Rohrabacher. I request another 1 minute.
    Mr. Chabot [continuing]. Receives another minute and he 
yields to the gentleman from New York.
    Mr. Rohrabacher. I certainly do.
    Mr. Ackerman. Thank you. I wasn't sure which you were 
referring to of illegal immigrants in a country. Was that the 
Mexicans in Arizona or the Iranians in Iraq?
    Mr. Rohrabacher. I would suggest that in both cases you 
have a situation, and I recognize there is no disagreement that 
I have with these gentlemen that Iraq has a right to control 
their territory with people in it. They do not have a right to 
shoot people down and we do--are not shooting people down. 
And----
    Mr. Ackerman. Amen.
    Mr. Rohrabacher [continuing]. We do not prevent--designate 
those people in our country with a specific designation that 
permits them--prevents them from going home.
    Mr. Ackerman. Let me try to--let me try to figure out our 
position here. The Mujahidin I believe was declared--was listed 
I think under the Clinton administration at the printed reports 
say under the suggestion of the Iranians at the time who we 
were trying to move into whatever position. The designation was 
continued
    Mr. Chabot. Without objection, the gentleman is granted 
another minute if he----
    Mr. Rohrabacher. Well, he----
    Mr. Chabot. You can object.
    Mr. Ackerman. I was going to say this will be the--the 
chair would tend to not give an additional minute, but you have 
got an additional minute.
    Mr. Rohrabacher. Thank you.
    Mr. Ackerman. Thank you. The question is if they were 
delisted on the--during the Obama administration, which I hear 
you asking for, if they were delisted from the terrorist list 
that would present the opportunity of absorbing them in other 
countries.
    Mr. Rohrabacher [continuing]. That would--that would 
facilitate----
    Mr. Ackerman [continuing]. Including our----
    Mr. Rohrabacher [continuing]. That would facilitate them--
--
    Mr. Ackerman. Would the gentleman----
    Mr. Rohrabacher [continuing]. With a broader range of 
places to go, yes.
    Mr. Ackerman. Would the gentleman be willing to establish a 
quota for a reasonable number to come to the United States?
    Mr. Rohrabacher. Yes. Yes. Yes, I think that we have--that 
we have in our history taken in people who are running from 
tyranny and escaping injustice and that is different than 
having a mass migration into our society
    Mr. Ackerman. Let me--let me----
    Mr. Rohrabacher [continuing]. For people who are coming 
here for economic reasons.
    Mr. Ackerman. The Secretaries, would these people be 
considered refugees because they could not go back to Iran 
because Iran was the one who considers them terrorists?
    Mr. Chabot. The gentleman's has expired. If you can wrap it 
up in 10 seconds that is fine. The gentleman from Nebraska is 
waiting so you want to say something in 10 seconds?
    Ambassador Feltman. it is a very complicated subject, but 
right now our own Immigration and Naturalization Act, the INA, 
would pose complications, even if there was no FTO designation 
any longer because of people who have received paramilitary 
training from what was considered a foreign terrorist 
organization at the time. So it is a very complicated issue. I 
am happy to talk more about it when we have time.
    Mr. Chabot. And the gentleman's time has expired. The 
gentleman from Nebraska, Mr. Fortenberry, is recognized for 5 
minutes.
    Mr. Fortenberry. Mr. Ambassador, Mr. Secretary, thank you 
for coming today. I am sorry I didn't have the benefit of your 
earlier testimony. Let us go back to the Syria question. Is 
there hesitancy on the part of the administration to further 
pressure Syria? Are you out of options? The U.N. Security 
Council you have proposed a condemnation there, but you have 
run into obstacles.
    Are you using leverage on those, particularly the Russians 
and the Chinese to overcome those obstacles? That is my first 
question if we can take a minute on that I will move to some 
others.
    Ambassador Feltman. First, Congressman Fortenberry, thanks 
a lot of coming to Michael Corbin's swearing in the other day. 
It was a real honor to have you there.
    Mr. Fortenberry. It was a great privilege to be invited. 
Thank you for welcoming me, yes.
    Ambassador Feltman. There are a number of options that we 
have taken. There are more options that we are looking at there 
is a lot of diplomacy under way. The, you know, as I said, we 
started off with Syria being one of the sanctioned countries on 
the planet in terms of the United States so we started off with 
a really high level of sanctions already in place, very little 
bilateral trade, a lot of Syrian regime figures already 
sanctioned for their outrageous interference in Lebanon for the 
support of terrorism, et cetera.
    What we have done since then is we passed executive orders 
that have allowed us already to designate 27 different 
individuals and entities. We are looking at more now. We will--
that list will expand. It is not exhaustive.
    Included in that 27 it is really important are three 
Iranian entities, Iranian entities who are helping Bashar al-
Assad kill, torture, arrest, maim his own people. And this 
highlights for the world that, you know, what Iran is doing 
inside Syria, holding Iran accountable for it as well, and it 
has gotten a lot of notice.
    We also have prevented Syria from taking a seat on the 
Human Rights Council in Geneva. Syria should have never even 
been considered given it record, but it was considered. We were 
able to diplomatically prevent them from getting on the 
Council. We were also able to get the Council to pass two 
resolutions condemning Syrian behavior. And also calling for an 
investigative mission into Syria which so far the Syrian regime 
has not taken.
    But these things all are noticed diplomatically. They are 
noticed inside Syria. What we are doing is we are providing the 
accountability that the Syrian people are demanding of their 
own government that the Syrian Government is not doing. I 
travel a lot and I am also in touch with all of Syria's 
neighbors. I tell you, Syria really has no friends left, and 
this is important.
    It reinforces this analysis that basically Bashar is 
losing.
    Mr. Fortenberry. How deep is his trouble?
    Ambassador Feltman. I think--I analyze that he can't win 
this. He cracks down more he enrages the public more. He pulls 
back, which is what--he should pull back and stop the killing 
and then the momentum of the demonstrations grow. He pulls his 
own friend that he can draw on is Iran. He pulls Iran in to 
help him with technical support, with material, with advisors, 
with financial support, that enrages the street.
    There is an anti-Iranian, anti-Hezbollah flavor to these 
demonstrations so his one tool makes, in fact, his problem 
worse. He is left with only three friends, Hezbollah, a great 
friend to have, Iran and then the crazy Lebanese politician 
Michel Aoun who for some reason has allied himself with Bashar 
al-Assad. That is not a whole lot of friends left to support 
you.
    Mr. Fortenberry. Let us turn--thank you. Let us turn 
quickly to Iran. Could you assess the green movement's chances?
    Ambassador Feltman. The Green Movement has been, you know, 
suppressed brutally by the Iranian regime and it is still there 
below the surface. It is a diffuse organization. It does not 
have--it is two main symbolic leaders have been under house 
arrest for months, but it is still there. And we are trying to 
create the political space in which people can communicate with 
each other, where they are able to get the tools to evade the 
Internet censors in there.
    They are not all--let us not kid ourselves. These people 
are not all in love with the United States or United States 
foreign policy, so we are not trying to back the Green Movement 
per se. We are trying to back the accountability they demand 
from the government, the political space they need to operate, 
the communications tools they need to be effective.
    Mr. Fortenberry. Well, if I could inject that, something 
right there, it is clear that the Iranian people have been 
throughout their history very attentive to the concept of 
justice. And if we can ask for a more moderate form of 
government that actually does justice for its people I think 
that is in the interest of global stability and that may be the 
best outcome we can hope for.
    But at the same time is this in any way related to the 
conflict or the potential conflict between the Supreme Leader 
and Ahmadinejad that has arisen, at least in press reports, the 
internal pressures, the internal dynamics of that?
    Ambassador Feltman. the internal conflict is real. You 
know, the press reports, you know, reflect what we understand 
to be the situation. You know, we don't have an Embassy there 
so we rely on a lot of different information to analyze, but 
the internal conflict is there. But we don't think that the 
internal conflict by itself poses any real threat to the regime 
at this point.
    Mr. Fortenberry. Is it related to the internal pressures 
from the Green Movement and new political space potentially 
developing or unrelated?
    Ambassador Feltman. You know, there could be connections 
but it is largely related to power between the----
    Mr. Fortenberry. All right.
    Ambassador Feltman [continuing]. Senior guys.
    Mr. Fortenberry. Thank you.
    Mr. Chabot. The gentleman's time has expired, and the final 
questioner probably unless somebody else shows up, is the 
gentleman from Illinois, Mr. Manzullo.
    Mr. Manzullo. Thank you, Mr. Chairman. I was in a financial 
services hearing and was not able to come in order to listen to 
your testimony. I would like to ask you a question that doesn't 
deal with Syria or Iran but it is a vital part of Mid East and 
just get your thoughts.
    Saudi Arabia and UAE sent troops into Bahrain to buttress 
the Sunni king, and reports of what is going on in Bahrain 
haven't really reached us, but there is a very serious issue as 
to the stability of Bahrain. And of course that is where the 
Navy is, the U.S. 5th Fleet is anchored.
    And I would just like your dialogue on where you think we 
are going to go on Bahrain? And I know it is off the topic, but 
I know that both of you are respected in the fields of the 
entire Middle East.
    Ambassador Feltman. Congressman, thanks for the question. 
You raise a very important topic that is related to our 
relationships in the Gulf more generally. I have been to 
Bahrain eight times since February. My colleague, Assistant 
Secretary Posner was there in I believe June? So we--and this 
shows both the depth of the partnership we have with Bahrain 
and the level of concern we have with some of the developments 
that have taken place there.
    We have stressed the need for the type of transparent steps 
toward reconciliation that will allow Bahrainis to feel that, 
you know, that the governing structures are reflecting, in 
fact, their aspirations for their future.
    There was, you know, a terrible situation in February and 
March. I happened to be there, in fact, when the Saudi troops 
that you mentioned came across the causeway from Saudi Arabia 
into Bahrain. It was a terrible situation at the time where you 
basically had the extremists on all sides setting the agenda, 
extremists on the Sunni side, extremists on the opposition 
side, hardliners in the government.
    What is happening now is you are seeing the moderate voices 
start to come out again, the moderate voices that represent the 
center in Bahrain. There have been some important steps that 
the king has taken in order to try to establish a positive 
vision of Bahrain going forward. There has been a commission of 
inquiry set up to look into what happened back in February and 
March.
    This has the sponsorship of the king. It has respected 
international jurists. It has a broad mandate to look into what 
happened. To the extent that this commission operates with 
transparency and can bring some accountability, I think that 
the Bahrainis themselves will feel assured about their future.
    The Ministry of Labor is looking at and has been announcing 
some job reinstatements of people that were determined to have 
been wrongly dismissed from their jobs. We encourage these 
sorts of steps going forward. So we are encouraging basically 
the moderate voices to stand up, who represent the majority, 
what we understand the majority of Bahrainis to take these 
sorts of reconciliatory steps to put the events of February and 
March behind us.
    Mr. Manzullo. Are you satisfied with any progress that you 
may be observing as a result of that?
    Ambassador Feltman. Yes, I would say that in all honesty 
that, you know, the record is mixed. That there have been 
positive announcements, positive steps like the commission of 
inquiry is extremely important. The transfer of court cases 
from security courts to civilian courts is a very positive--is 
a very positive move.
    There have been people released from detention. There is 
more that needs to be done. There was a national dialogue to 
look at reform issues. We were disappointed that the major 
opposition party pulled out of that national dialogue. We think 
that all parties should be participating in a genuine dialogue 
about Bahrain's future.
    We have a strong partnership with Bahrain. We will continue 
to be working with all parties involved----
    Mr. Manzullo. Let me--let me interrupt you because I would 
like to get Secretary Posner's take.
    Ambassador Feltman. Yes.
    Mr. Manzullo. Thank you.
    Mr. Posner. Thank you. I share Jeff's assessment. I do--I 
am concerned about continued detentions, a number, perhaps 
several hundred people are still detained without charge. We 
continue to press on that. I am concerned about the dismissals, 
but as Secretary Feltman said, they have begun to reintegrate 
those people back to their jobs.
    I think we are at a critical place right now and again, in 
contrast to the countries we have been talking about, there is 
a strong relationship with Bahrain. We do have a very open 
dialogue, and I think it is important for us both to keep re-
emphasizing the strength of the partnership and at the same 
time have an honest discussion about the need for general 
reconciliation and for moving forward in a way that does really 
allow all segments of that society to participate in the 
political life of that country.
    So this is a critical moment and I am glad that you are 
paying attention to it.
    Mr. Manzullo. Mr. Chairman, if I could have just another 
minute?
    Mr. Chabot. The gentleman, without objection, is recognized 
for an additional minute.
    Mr. Manzullo. I don't recall the response, if any, that the 
U.S. Government gave when Saudi Arabia and UAE sent troops in.
    Ambassador Feltman. Secretary Clinton was in Cairo at the 
time when those troops went in. and as I said, I was actually 
in Bahrain at the time and she made a very strong statement 
that got the notice of the Saudis and the Emiratis. But there 
is a real--as Secretary Posner said, there is a real 
distinction here which is that not only do we have a strong 
relationship with the government itself but we have a head of 
state who is trying to take steps to heal the divisions, to 
avoid a repetition of what happened in February and March.
    We don't see the same thing happening in Syria and in Iran.
    Mr. Chabot. Okay. the gentleman's time has expired. We want 
to thank the panelists this afternoon for answering our 
questions, sometimes to our satisfaction and sometimes not, but 
that is not that unusual in this committee and many committees 
around this place.
    But obviously very important issues. Thank you for dealing 
with them. And all members will have 5 days to submit reports 
for the record, and if there is no further business to come 
before the committee, we are adjourned.
    [Whereupon, at 4:03 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
